           Office of Inspector General




March 31, 2004

SCOTT TUCKER
MANAGER, SAN FRANCISCO DISTRICT

SUBJECT:         Audit Report - Efficiency of the San Francisco International Service Center
                 and the General Services Administration Facility
                 (Report Number NO-AR-04-006)

This report presents the results of our review of two mail processing operations located
in the San Francisco District (Project Number 03YG052AC000). Our objectives were to
determine the efficiency of work performed by the San Francisco International Service
Center (ISC) and to assess the use of the General Services Administration (GSA)
facility. This self-initiated audit was conducted jointly with Pacific Area mail processing
managers and in cooperation with the manager, San Francisco District. In addition, we
developed the GSA review with local management.

The audit revealed that the Postal Service could increase efficiency by:

   •   Reducing 120,000 workhours at the San Francisco ISC. The financial impact of
       the workhour reduction could produce a cost avoidance of $39 million based on
       labor savings over ten years.

   •   Transferring mail being processed at the GSA facility in San Francisco to the
       San Francisco ISC and closing the GSA facility. As a result of these actions, the
       Postal Service could avoid approximately $5.2 million in operational costs over
       ten years.

We made three recommendations to Postal Service management addressing these
issues. Management agreed to our findings, recommendations, and monetary impact
and has initiatives in progress, completed, or planned addressing the issues in this
report. Management’s comments and our evaluation of these comments are included in
the report.

The Office of Inspector General (OIG) considers recommendations 1 and 3 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, director, Network Operations - Processing, at (703) 248-2100 or me at
(703) 248 2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Al Iniguez
    Michael J. Nappi
    Kerry L. Wolny
    James L. Larkin
    Joseph K. Moore
    Susan M. Duchek
Efficiency of the San Francisco International                          NO-AR-04-006
 Service Center and the General Services
 Administration Facility


                                     TABLE OF CONTENTS

 Executive Summary                                                               i

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objectives, Scope, and Methodology                                         2
     Prior Audit Coverage                                                       2

 Part II

 Audit Results                                                                  3

     Assessment of Resources Used at the San Francisco International            3
     Service Center
        Management’s Actions                                                    6
     Recommendations                                                            6
     Management’s Comments                                                      7
     Evaluation of Management’s Comments                                        7

     Assessment of the General Services Administration Facility                 8
       Management’s Actions                                                     8
     Recommendation                                                             8
     Management’s Comments                                                      9
     Evaluation of Management’s Comments                                        9

 Appendix A. Revenue and Volume Rates in Percentages FYs 1998                  10
             to 2002

 Appendix B. Prior Audit Coverage                                              11

 Appendix C. Targeted Productivity Levels Achieved by Each Type of             13
             Mail Processing Operation for the San Francisco
             International Service Center FYs 2002 and 2003

 Appendix D. FY 2003 First Handling Pieces and Total Pieces Handled            14
             Volume Per Total Workhours

 Appendix E. Cost Avoidance at the San Francisco International                 15
             Service Center
Efficiency of the San Francisco International                        NO-AR-04-006
 Service Center and the General Services
 Administration Facility



 Appendix F. Projections of Cost Avoidance Based on Closure of the           16
             General Services Administration Facility

 Appendix G. Management’s Comments                                           17
Efficiency of the San Francisco International                                          NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                    EXECUTIVE SUMMARY
 Introduction                    The Office of Inspector General assessed two mail
                                 processing operations in the San Francisco District.
                                 Our objectives were to determine the efficiency of work
                                 performed by the San Francisco International Service
                                 Center (ISC) and to assess the use of the General Services
                                 Administration (GSA) facility. This self-initiated audit was
                                 conducted jointly with Pacific Area mail processing
                                 managers and in cooperation with the manager,
                                 San Francisco District. In addition, we developed the GSA
                                 review with local management.

 Results in Brief                We concluded that the Postal Service could increase
                                 efficiency by:

                                     •    Reducing 120,000 workhours at the San Francisco
                                          ISC. The financial impact of the workhour reduction
                                          could produce a cost avoidance of $39 million based
                                          on labor savings over ten years.

                                     •    Transferring mail being processed at the GSA facility
                                          in San Francisco to the San Francisco ISC and
                                          closing the GSA facility. As a result of these actions,
                                          the Postal Service could avoid approximately
                                          $5.2 million in operational costs over ten years.

                                 Postal Service management addressed operational
                                 efficiency through the budget process focusing on workhour
                                 utilization against the plan. However, Postal Service
                                 management had not evaluated operational efficiency in the
                                 manner carried out by this audit, which included
                                 benchmarking operations against other international service
                                 centers and domestic plant operations.

                                 Postal Service management agreed to reduce workhours at
                                 the San Francisco ISC by at least 120,000 hours. Workhour
                                 reductions commenced in fiscal year (FY) 2003 and
                                 completion is expected by the end of FY 2007. The Postal
                                 Service has already begun to reduce workhours by
                                 approximately 10,000 hours by not filling five vacant
                                 positions. They also agreed to terminate the lease on the
                                 GSA facility and transfer the mail to the San Francisco ISC
                                 for processing.




                                                    i
Efficiency of the San Francisco International                                       NO-AR-04-006
 Service Center and the General Services
 Administration Facility




 Summary of                      We recommend the manager, San Francisco District,
 Recommendations                 reduce 120,000 workhours, periodically evaluate operating
                                 efficiency at the San Francisco ISC, and close the GSA
                                 facility, as planned.

 Summary of                      Management agreed with our findings, recommendations
 Management’s                    and associated monetary impact. Management’s
 Comments                        comments, in their entirety, are included in Appendix G of
                                 this report.

 Overall Evaluation of           The management comments reflect that the manager, San
 Management’s                    Francisco District has been very proactive and aggressive
 Comments                        with implementing the recommendations. The San
                                 Francisco District is also committed to continually improving
                                 their operations as made evident by their participation and
                                 cooperation with the joint effort process. Management’s
                                 actions, taken or planned, should correct the issues
                                 identified in the findings.




                                                  ii
Efficiency of the San Francisco International                                                          NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                             INTRODUCTION
    Background                        The Postal Service established international service centers
                                      in 1996 to better compete in the growing international mail
                                      market. Before 1996, Exchange Offices1 processed
                                      international and military mail.2 These Exchange Offices
                                      were collocated in processing and distribution centers
                                      where domestic mail processing took precedence over
                                      international mail.

                                      On August 5, 1997, the Board of Governors approved
                                      $146.9 million in capital investments funding and
                                      $129.7 million (undiscounted) for lease expense funding to
                                      establish a network dedicated to processing international
                                      and military mail. The international/military network was
                                      established to improve international/military mail service
                                      with a dedicated workforce and single-focus management.
                                      The Postal Service hoped that this approach would lead to
                                      service improvements and provide the necessary structure
                                      to support new products and increase revenue. In response
                                      to this marketing and sales plan, international service
                                      centers were established at Miami, Florida; Chicago, Illinois;
                                      Los Angeles, California; Dallas, Texas; San Francisco and
                                      Oakland, California; New York, New York; and Dulles,
                                      Virginia.3

                                      However, the implementation of this marketing plan did not
                                      increase volume or revenue as projected. The volume of
                                      international mail declined by 16.5 percent from fiscal years
                                      (FY) 2001 to 2002, and revenue declined by 8.8 percent.
                                      Appendix A shows the revenue and volume rates in
                                      percentages from FYs 1998 to 2002. A study conducted in
                                      March 1996 on behalf of the Postal Service by Coopers and
                                      Lybrand, LLP, projected that international mail revenue
                                      would be $6.1 billion in the year 2000 and $11.4 billion by
                                      the year 2005. However, actual revenue in 2000 was
                                      $1.66 billion and represented a shortfall of 73 percent of the
                                      projected amount. It is unlikely that the Postal Service will

1
  An International Exchange Office/International Mail Service Center is a post office or airport mail center/facility
authorized to exchange international mail and military mail, both air and surface, with another country.
2
  International mail is mail originating in one country and arriving in another. It is classified as Postal Union Mail
(letters and cards and other articles), postal parcels, and Express Mail International Service. Military mail is mail
addressed to or mailed from a military unit located outside the continental United States or between two military units
overseas.
3
  The planned Dulles, Virginia, International Service Center was completed in October 1999, but does not serve as an
international service center.


                                                        1
Efficiency of the San Francisco International                                       NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                   achieve the 2005 projection of $11.4 billion, based on
                                   revenue in 2002 of just $1.58 billion.

   Objectives, Scope,              The audit assessed the efficiency of work performed by the
   and Methodology                 San Francisco International Service Center (ISC) and the
                                   use of the GSA facility. The manager, San Francisco
                                   District, requested that we examine the feasibility of
                                   transferring the workload from the GSA facility to the San
                                   Francisco ISC. We conducted this audit jointly with Pacific
                                   Area mail processing managers and in cooperation with the
                                   manager, San Francisco District. In addition, we developed
                                   the GSA review with local management.

                                   To assess the efficiency of these two facilities, we observed
                                   processing operations, analyzed mail volumes and
                                   workhours, and evaluated capacities. In addition, we
                                   benchmarked the mail volumes per workhour at the
                                   San Francisco ISC with other international service centers.

                                   We relied on Postal Service operational systems, including
                                   the National Workhour Reporting System, the Management
                                   Operating Data System, the Web Enterprise Information
                                   System, and the Web End-of-Run System to analyze
                                   mailings and workhours. We did not test the validity of
                                   controls over these systems. However, we checked the
                                   accuracy of data by confirming our analysis and results with
                                   Postal Service managers. Nothing came to our attention to
                                   suggest that the data used was unreliable.

                                   This audit was conducted from August 2003 through
                                   March 2004 in accordance with generally accepted
                                   government auditing standards and included such tests
                                   of internal controls as were considered necessary under
                                   the circumstances. We discussed our conclusions and
                                   observations with appropriate management officials and
                                   included their comments where appropriate.

   Prior Audit Coverage            We have issued seven prior audit reports on workhour
                                   efficiency. (See Appendix B for details.)




                                                2
Efficiency of the San Francisco International                                                                         NO-AR-04-006
 Service Center and the General Services
 Administration Facility


                                                      AUDIT RESULTS
    Assessment of                            The Postal Service could improve the efficiency of
    Resources Used at the                    processing international and military mail at the
    San Francisco                            San Francisco ISC. Specifically, we found workhours at the
    International Service                    San Francisco ISC were excessive in relation to workload,
    Center                                   the San Francisco ISC did not meet its productivity targets
                                             for machine utilization, and the San Francisco ISC was less
                                             efficient than all the other international service centers.

                                             Title 39, U.S.C., Chapter 4, Section 403 states, “The Postal
                                             Service shall plan, develop, promote and provide adequate
                                             and efficient postal services. . . .” Postal Service
                                             management addressed operational efficiency through the
                                             budget process focusing on workhour utilization against the
                                             plan.4 However, Postal Service management had not
                                             evaluated operational efficiency in the manner carried out by
                                             this audit, which included benchmarking operations against
                                             other international service centers and domestic plant
                                             operations.

    Workhours Were                           The mail volume (first handling pieces5) processed at the
    Excessive in Relation to                 San Francisco ISC in FY 2003 was 11.5 million pieces
    Workload                                 (8.3 percent) lower than in FY 2002. However, during the
                                             same period, total workhours used to process this mail was
                                             177,000 hours (25 percent) higher. As a consequence, the
                                             Postal Service used more resources to process less mail in
                                             FY 2003. The chart below depicts the volume and
                                             workhours for both fiscal years.




4
    The budget process takes into account productivity requirements, volume, and cost reduction initiatives.
5
    A first handling piece is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.


                                                                 3
Efficiency of the San Francisco International                                                           NO-AR-04-006
 Service Center and the General Services
 Administration Facility




                                        Volume
                                          and                                                  Percentage
                                       Workhours FY 2002                   FY 2003         Increase/Decrease
                                       Volume of            137.7          126.2           8 percent decrease
                                       First                million        million
                                       Handling
                                       Pieces 6
                                       Workhours            707,000        884,000         25 percent increase



    San Francisco                     The San Francisco ISC has not achieved target productivity
    International Service             levels for each of its mail processing operations over a
    Center Did Not Meet               two-year period. Target productivity levels are based on
    Productivity Targets              total pieces of mail that could be processed for each
                                      machine or workhour of that particular operation. Overall, in
                                      FYs 2002 and 2003, the San Francisco ISC achieved
                                      68 percent and 48 percent of its total targeted productivity
                                      levels, respectively.

                                      For example, the delivery barcode sorting operation met
                                      59 percent of its national target level in FY 2002 and
                                      34 percent in FY 2003. The Postal Service should have,
                                      but did not, adjust staffing levels after the removal of
                                      one delivery barcode sorter. Appendix C shows the
                                      percentage of target productivity levels achieved for each
                                      mail processing operation.

    San Francisco                     The San Francisco ISC was less efficient than all other
    International Service             international service centers. The following chart depicts
    Center Was Less                   productivity levels using first handling pieces per
    Efficient Than All Other          workhour and total pieces handled7 per workhour for the
    International Service             San Francisco ISC as compared to all other international
    Centers                           service centers.




6
  Volume shown includes the total of all types of mail (letter, parcels, and flats). Volume growth can vary within each
type of mail and variations can impact workhour efficiency.
7
  Total pieces handled refer to the number of handlings necessary to distribute each piece of mail from the time of
receipt to dispatch, including multiple handlings of each piece.


                                                        4
Efficiency of the San Francisco International                                                            NO-AR-04-006
 Service Center and the General Services
 Administration Facility




                                              San Francisco International Service Center Data
                                                   FIRST            FIRST
                                                 HANDLING         HANDLING        TOTAL PIECES
                                                PIECES PER       PIECES PER       HANDLED PER         TOTAL PIECES
                                                WORKHOUR         WORKHOUR          WORKHOUR           HANDLED PER
                                          FISCAL FOR SAN         FOR OTHER          FOR SAN          WORKHOUR FOR
                                           YEAR FRANCISCO           SITES          FRANCISCO           OTHER SITES




                                          2002 194.47               203.66            198.67              229.43
                                          2003 138.06               207.59            159.58              246.54




                                      For FYs 2002 and 2003, first handling pieces per workhour
                                      ratios for the San Francisco ISC were 194.47 and 138.06, as
                                      compared to the other international service centers8 ratios of
                                      203.66 and 207.59, respectively. These ratios show that the
                                      San Francisco ISC processed less mail per workhour than
                                      the other international service centers. Similar trends were
                                      found when total pieces handled per workhour ratio was
                                      compared to other centers. Appendix D shows how the
                                      San Francisco ISC compared to other international service
                                      centers with regard to volumes per workhour for FY 2003.

                                      These conditions resulted because Postal Service managers
                                      did not properly adjust workhours as a result of changes in
                                      mail volumes. In addition, observations conducted at the
                                      San Francisco ISC found that employee productivity could
                                      be improved. The Office of Inspector General agreed with
                                      Postal Service managers that this is a result of:

                                      •    A misalignment between employees’ scheduled
                                           workhours and mail arrival times.

                                      •    Excessive handling of mail.

                                      •    Low mailing volumes relative to the number of
                                           workhours.



8
 The other International Service Centers included Miami, Chicago, New York, Los Angeles, and Dallas. The
Oakland International Service facility was not included in our analysis because only surface international mail is
handled at this facility.


                                                         5
Efficiency of the San Francisco International                                                         NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                     •   Managers not evaluating and adjusting staffing levels
                                         based on mail volumes.

                                     •   Use of employees on limited/light duty assignments. 9

                                     As a result, we estimated that approximately
                                     120,000 workhours could be reduced by the end of
                                     FY 2007 based on mail volumes, targeted productivity
                                     levels, comparison to other international service centers,
                                     and observations of mail processing operations.

                                     The reduction in workhours by FY 2007 will result in a
                                     cost avoidance for the Postal Service of approximately
                                     $39 million.10 This reduction in workhours includes the
                                     absorption of the GSA facility workload.

    Management’s Actions             To improve productivity, Postal Service management agreed
                                     to reduce 120,000 workhours. Workhour reductions
                                     commenced in FY 2003 and completion is expected by the
                                     end of FY 2007. Postal Service management had already
                                     begun to reduce workhours by approximately 10,000 hours
                                     by not filling vacant positions. Workhour reductions will be
                                     achieved through both employee attrition and termination of
                                     casual (temporary) employees. While holding mail volume
                                     constant, these actions will significantly raise productivity
                                     levels at the San Francisco ISC. Appendix E details the
                                     financial impact of workhour reductions at the San Francisco
                                     ISC.

    Recommendations                  To improve operating efficiency at the San Francisco
                                     International Service Center, we recommend the manager,
                                     San Francisco District:

                                         1. Reduce 120,000 workhours, as planned.

                                         2. Periodically evaluate operating efficiency and staffing
                                            at the San Francisco International Service Center to
                                            determine whether further workhour adjustments are
                                            necessary based on workload.




9
  Employees are placed on limited/light duty assignments because of injury and are assigned tasks within their
physical limitations.
10
   This calculation of cost saving is consistent with Postal Service cash flow methodology.


                                                       6
Efficiency of the San Francisco International                                       NO-AR-04-006
 Service Center and the General Services
 Administration Facility


 Management’s                      Management agreed with our finding, recommendations
 Comments                          and associated monetary impact. The manager, San
                                   Francisco District will continue to reduce workhours at the
                                   ISC through the end of FY 2007. Postal Service
                                   management also will monitor the efficiency of operations
                                   on a daily basis and arrange an independent review
                                   semiannually to ensure savings are captured.

 Evaluation of                     Management’s actions, taken or planned, should correct
 Management’s                      the issues identified in the finding.
 Comments




                                                 7
Efficiency of the San Francisco International                                                         NO-AR-04-006
 Service Center and the General Services
 Administration Facility


 Assessment of the                   Priority Mail processed at the GSA facility11 in San Francisco
 General Services                    could be processed more efficiently at the San Francisco
 Administration Facility             ISC. This facility was leased in August 1980 to provide
                                     additional work space to process San Francisco mail volume
                                     and operates 24 hours a day, 7 days a week.

                                     At the GSA facility, Priority Mail, including military Priority
                                     Mail, was being processed via manual operations, which is
                                     inefficient. We also found that the relatively low mail
                                     volume, 276 million pieces in FY 2003, did not justify the
                                     cost of the operations. This mail could be processed more
                                     efficiently using automated or mechanized equipment and
                                     easily absorbed by the San Francisco ISC.

                                     Title 39, U.S.C., Chapter 4, Section 403 states, “The Postal
                                     Service shall plan, develop, promote, and provide adequate
                                     and efficient postal services. . . .” Postal Service
                                     management addressed operational efficiency through the
                                     budget process focusing on workhour utilization against the
                                     plan. However, Postal Service management had not
                                     evaluated operational efficiency in the manner carried out by
                                     this audit.

                                     As a result, the Postal Service could incur unnecessary
                                     operational costs of approximately $5.2 million over
                                     ten years by keeping the GSA facility open. Appendix F
                                     details the financial impact of closing the GSA facility.

 Management’s Actions                Postal Service management agreed to terminate the lease,
                                     close the GSA facility, and transfer the mail to the
                                     San Francisco ISC for processing. The transfer of the GSA
                                     facility workload would improve efficiency and plant use in
                                     the San Francisco District.

 Recommendation                      To improve operating efficiency, we recommend the
                                     manager, San Francisco District:

                                          3. Transfer the processing of mail from the General
                                             Services Administration facility to the San Francisco
                                             International Services Center and close the General
                                             Services Administration facility, as planned.

11
 Our examination of the feasibility of transferring the workload from the GSA facility to the San Francisco ISC was
made in cooperation with the manager, San Francisco District.


                                                        8
Efficiency of the San Francisco International                                    NO-AR-04-006
 Service Center and the General Services
 Administration Facility


 Management’s                    Management agreed with our finding, recommendation and
 Comments                        associated monetary impact. Postal Service management
                                 will transfer GSA operations to the San Francisco ISC in
                                 April 2004 and subsequently terminate the GSA lease.

 Evaluation of                   Management’s actions, taken or planned, should correct the
 Management’s                    issues identified in the finding.
 Comments




                                                9
Efficiency of the San Francisco International                               NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                             APPENDIX A
              REVENUE AND VOLUME RATES IN PERCENTAGES
                           FYS 1998 TO 2002

       Revenue                   1998            1999     2000    2001         2002
First-Class Mail                1.40%           3.20%    1.70%   1.00%        1.70%

Standard Mail (A)               6.40%           5.40%    5.20%   3.40%        0.70%

Priority Mail                   8.60%           8.30%    6.70%   1.60%       -3.90%

Standard Mail (B)               7.80%           4.20%    4.60%   4.30%        4.30%

Periodicals Mail                0.20%           2.10%    2.60%   1.60%       -1.80%
International Mail             -0.90%           1.80%    1.80%   4.50%       -8.80%


International mail revenue declined by 8.8 percent between 2001 and 2002, after
maintaining a steady increase between 1999 and 2001.

       Volume                    1998            1999     2000    2001        2002
First-Class Mail                0.80%           1.50%    1.60%   0.10%       -1.20%


Standard Mail (A)               6.80%           3.80%    5.10%   -0.10%      -3.00%

Priority Mail                   9.90%           1.30%    2.80%   -8.60%      -10.70%

Standard Mail (B)               3.50%           1.90%    8.20%   -3.10%      -1.60%

Periodicals Mail               -0.90%           -0.40%   0.90%   -2.80%      -3.80%

International Mail             -6.20%           9.20%    6.70%   -1.50%      -16.50%



The growth pattern in international mail over the past five years has shown considerable
volatility.

Source: FYs 2000 and 2002 Postal Service Annual Reports.




                                                  10
Efficiency of the San Francisco International                               NO-AR-04-006
 Service Center and the General Services
 Administration Facility



                                       APPENDIX B
                                  PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002), found that
many business mail entry employees at Denver Bulk Mail Center and Denver General
Mail facility were not needed to accept business mailings. Management could save an
estimated $1 million annually if the number of employees were reduced. We
recommended that management oversee the consolidation of business mail entry
operations and reduce staff as planned, and reevaluate staffing to determine whether
further staff reductions were necessary. Management agreed, and the actions taken
and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003), found
that these facilities should reduce the workhours necessary to accept business mailings.
Management could save an estimated $588,730 through the end of FY 2005 when its
planned workhour reductions are fully implemented. We recommended that senior
plant managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers reduce
hours, reevaluate staffing needs periodically, and ensure that appropriately trained
personnel perform acceptance functions. Management agreed, and the actions taken
and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003), found that the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
28,800 hours by the end of FY 2005. This reduction in workhours could produce an
estimated cost avoidance of approximately $9.26 million over ten years. We
recommended that the manager, Los Angeles District, reduce hours and reevaluate
staffing needs periodically. Management agreed with our recommendations and has
initiatives in progress addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003), found that the district
should reduce workhours necessary to accept business mailings in the San Francisco
Business Mail Entry Unit. During the audit, Postal Service management agreed to
aggressively reduce business mail entry workhours by 18,000 hours by the end of
FY 2006. This reduction in workhours could produce an estimated cost avoidance of
approximately $6.9 million over ten years. We recommended that the manager,
San Francisco District, reduce hours as planned and reevaluate staffing needs
periodically. Management agreed, and the actions taken and planned were responsive
to the issues identified in the report.


                                                11
Efficiency of the San Francisco International                                NO-AR-04-006
 Service Center and the General Services
 Administration Facility


Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Southern Maryland Business Mail Entry Unit. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
20,240 hours by the end of FY 2006. This reduction in workhours could produce an
estimated cost avoidance of approximately $8.4 million over ten years. We
recommended that the manager, Capitol District, reduce hours as planned and
reevaluate staffing needs periodically. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Columbia, Maryland, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 3,960 hours by the
end of FY 2005. This reduction in workhours could produce an estimated cost
avoidance of approximately $1.4 million over ten years. We recommended that the
manager, Baltimore District, reduce hours as planned and periodically reevaluate
staffing. Management agreed, and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004), found that
the district should reduce the workhours necessary to accept business mailings in the
Springfield, Virginia, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of $969,893 over ten years. We recommended that the manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed, and the actions taken and planned were responsive to the issues
identified in the report.




                                                12
                  Efficiency of the San Francisco International                                 NO-AR-04-006
                   Service Center and the General Services
                   Administration Facility


                                                                  APPENDIX C

                       TARGETED PRODUCTIVITY LEVELS ACHIEVED BY EACH TYPE OF MAIL
                       PROCESSING OPERATION FOR THE SAN FRANCISCO INTERNATIONAL
                                            SERVICE CENTER
                                           FYS 2002 AND 2003

 MAIL PROCESSING
    OPERATION                  PIECES PER WORKHOUR                                   PERCENTAGE OF TARGET

                       2002 Productivity 2003 Productivity            Target     Achieved 2002          Achieved 2003
Flat Sorter Machine
  1000                        305                  275               520               59%                   53%
Small Parcel Bundle
  Sorter                      217                  188               366               59%                   51%
Delivery Barcode
  Sorter                     5,108                2,910             8,629              59%                   34%
Linear Integrated
  Parcel Sorter               157                  381               492               32%                   77%
Manual Handling of
  Flats                       251                  585               627               40%                   93%
Manual Handling of
  Letters                     459                  336               691               66%                   49%
Manual Handling of
  Parcels                     170                  101               583               29%                   17%
Totals for
Operations*                   583                  415               862               68%                   48%
*Totals for operations were determined by total pieces on each of the mail processing operations divided by the total
workhours used on each of the mail processing operations.
Source: Management Operating Data System and Breakthrough Productivity Index Targets

                                                                     13
Efficiency of the San Francisco International                                                          NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                                APPENDIX D

   FY 2003 FIRST HANDLING PIECES AND TOTAL PIECES HANDLED
                 VOLUME PER TOTAL WORKHOURS




                                                                       159.58
   SAN FRANCISCO
                                                              138.06



                                                                                              217.40
     LOS ANGELES
                                                                                         201.50



                                                                                                          247.60
        NEW YORK
                                                                                183.21



                                                                                                           251.26
         CHICAGO
                                                                                                         245.07



                                                                                                              261.42
             MIAMI
                                                                                                                    277.32



                                                                                                           252.66
           DALLAS
                                                                                                                       279.73




                     0             50             100           150                200                  250                300

                                            FIRST HANDLING PIECES     TOTAL PIECES HANDLED




Note: The ratios were computed by taking the first handling pieces volume and total
handling pieces volume divided by the total workhours for FY 2003.
Source: Web Enterprise Information System.




                                                   14
Efficiency of the San Francisco International                                 NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                          APPENDIX E

                    COST AVOIDANCE AT THE SAN FRANCISCO
                       INTERNATIONAL SERVICE CENTER
                          (FUNDS PUT TO BETTER USE)


                                             Yearly        Cost Avoidance
                                            Workhour       (Ten Years with
                     Year
                                            Reduction        Escalation)

        FY 2004
        (Effective Accounting                   30,000      $12,946,376
        Period 1)
        FY 2005
        (Effective Accounting                   30,000      $13,270,035
        Period 1)
        FY 2006
        (Effective Accounting                   30,000      $13,601,786
        Period 1)
        FY 2007
        (Effective Accounting                   30,000      $13,941,831
        Period1)
        Totals (ten full fiscal years)       120,000        $53,760,028
                                          Present Value
                                          at 4.5 percent    $39,027,390
                                          for ten years

NOTES

    •    The 30,000 workhour reduction is based on Postal Service management’s plan
         to reduce 120,000 workhours over a four-year period.
    •    The cost avoidance was calculated using the hour saving multiplied by the
         escalated labor rate over a ten-year period.
    •    The net present value was calculated using the discount rate of 4.5 percent over
         a ten-year period.
    •    Labor rates were based on the Postal Service 2003 published rates for a PS-05
         mail processing clerks.
    •    The yearly escalation factor is 2.5 percent.
    •    The Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by
implementing recommended actions.




                                                   15
Efficiency of the San Francisco International                                 NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                                          APPENDIX F

PROJECTIONS OF COST AVOIDANCE BASED ON CLOSURE OF THE
       GENERAL SERVICES ADMINISTRATION FACILITY
               (FUNDS PUT TO BETTER USE)

                                           Yearly         Yearly      Cost Avoidance
                                           Lease         Utilities    (Ten Years with
                   Year
                                          Savings        Savings        Escalation)


        FYs 2004 through 2007             $528,297      $128,600         $6,700,656

                                                     Present Value
                                                     at 4.5 percent      $5,233,893
                                                     for ten years



NOTES

    •    The cost avoidance was calculated using the escalated lease and utility saving
         over a ten-year period. The first year calculation was based on nine months.
    •    The net present value was calculated using the discount rate of 4.5 percent over
         a ten-year period.
    •    The yearly escalation factor is 0.80 percent for lease cost and 0.50 percent for
         utilities.
    •    Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by
implementing recommended actions.




                                                16
Efficiency of the San Francisco International          NO-AR-04-006
 Service Center and the General Services
 Administration Facility

                    APPENDIX G MANAGEMENT’S COMMENTS




                                                17
Efficiency of the San Francisco International        NO-AR-04-006
 Service Center and the General Services
 Administration Facility




                                                18
